<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                   
                        [H.A.S.C. No. 115-115]

           DEPARTMENT OF DEFENSE'S ROLE IN FOREIGN ASSISTANCE

                               __________

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 11, 2018


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                     
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-471                     WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------  
  
  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                ELISE M. STEFANIK, New York, Chairwoman

BILL SHUSTER, Pennsylvania           JAMES R. LANGEVIN, Rhode Island
RALPH LEE ABRAHAM, Louisiana         RICK LARSEN, Washington
LIZ CHENEY, Wyoming, Vice Chair      JIM COOPER, Tennessee
JOE WILSON, South Carolina           JACKIE SPEIER, California
FRANK A. LoBIONDO, New Jersey        MARC A. VEASEY, Texas
DOUG LAMBORN, Colorado               TULSI GABBARD, Hawaii
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
JODY B. HICE, Georgia                STEPHANIE N. MURPHY, Florida
(Vacancy)
                Pete Villano, Professional Staff Member
                Katie Sendak, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Stefanik, Hon. Elise M., a Representative from New York, 
  Chairwoman, Subcommittee on Emerging Threats and Capabilities..     1

                               WITNESSES

Dalton, Melissa, Senior Fellow and Deputy Director, International 
  Security Program, and Director, Cooperative Defense Project, 
  Center for Strategic and International Studies.................    22
Jenkins, Robert, Deputy Assistant Administrator for Democracy, 
  Conflict and Humanitarian Assistance, United States Agency for 
  International Development......................................     7
Ladnier, Jason, Director of the Office of Partnerships, Strategy, 
  and Communications, Bureau of Conflict and Stabilization 
  Operations, Department of State................................     4
Mitchell, Mark E., Principal Deputy Assistant Secretary of 
  Defense for Special Operations/Low-Intensity Conflict, 
  Department of Defense..........................................     8
Schopp, Julien, Director for Humanitarian Practice, InterAction..    21

                                APPENDIX

Prepared Statements:

    Dalton, Melissa..............................................    70
    Jenkins, Robert..............................................    43
    Ladnier, Jason...............................................    37
    Mitchell, Mark E.............................................    52
    Schopp, Julien...............................................    59
    Stefanik, Hon. Elise M.......................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Cooper...................................................    83

Questions Submitted by Members Post Hearing:

    Ms. Rosen....................................................    87
    
    
    
           DEPARTMENT OF DEFENSE'S ROLE IN FOREIGN ASSISTANCE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                          Washington, DC, Wednesday, July 11, 2018.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2118, Rayburn House Office Building, Hon. Elise M. 
Stefanik (chairwoman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELISE M. STEFANIK, A REPRESENTATIVE 
FROM NEW YORK, CHAIRWOMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Ms. Stefanik. The subcommittee will come to order.
    Good morning, everyone, and welcome to this hearing of the 
Emerging Threats and Capabilities [ETC] Subcommittee. Today we 
have before us two panels as we examine the role of the 
Department of Defense [DOD] in foreign assistance.
    This committee is very familiar with how the Pentagon and 
our men and women in uniform contribute to our national 
security. But it has been a while since we have discussed this 
topic with an interagency panel such as the one before us 
today. We are very appreciative of the chance to do so given 
the importance of foreign assistance in today's uncertain and 
complex world.
    The topic and timing of today's hearing is fortuitous, not 
just because our committee is currently negotiating with the 
Senate for the FY [fiscal year] 2019 National Defense 
Authorization Act [NDAA], but also because we as a nation 
continue to face a myriad of challenges in conflict and post-
conflict regions that will require a holistic, interagency and 
whole-of-society approach to increase stability and reduce 
violence in many of the regions and countries we will discuss 
here today.
    This will involve the agencies that are before us now, but 
not exclusively. It will also require close working 
relationships with non-governmental organizations [NGOs] and 
non-Federal entities [NFEs], a large objective of today's 
hearing.
    This committee, and indeed this particular subcommittee in 
particular, conducts rigorous oversight of ongoing 
counterterrorism [CT] operations and activities in conflict and 
post-conflict countries, and understands firsthand the 
challenges that we, as a nation, face in Afghanistan, Syria, 
Somalia, Yemen, and Libya, to name just a few.
    We have continually asked hard questions in previous 
hearings to understand our long-term counterterrorism and 
security objectives, and to ensure that our successes are not 
only of a kinetic nature. And yet, as we approach year 18 of 
near constant combat, it is becoming increasingly difficult to 
see and realize long-term and sustainable progress in many 
regions.
    How do we ensure and measure regional and strategic effects 
on the battlefield that contribute to security and stability? 
What role does foreign assistance play? And what specific role 
should the Department of Defense play in support of USAID 
[United States Agency for International Development] and the 
State Department?
    Today's panel here is very well-qualified to help guide us 
through these critical and important questions on national 
security. Welcome to our first three witnesses, starting from 
my left: Mr. Jason Ladnier, Director of the Office of 
Partnerships, Strategy, and Communications, U.S. Department of 
State; Mr. Robert Jenkins, Deputy Assistant Administrator for 
Democracy, Conflict and Humanitarian Assistance, USAID; and Mr. 
Mark Mitchell, Principal Deputy Assistant Secretary of Defense 
for Special Operations/Low-Intensity Conflict.
    I would now like to recognize my friend, Ranking Member Jim 
Langevin of Rhode Island, for any opening statements you would 
like to make.
    [The prepared statement of Ms. Stefanik can be found in the 
Appendix on page 35.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Chairwoman Stefanik. And thank you 
to our witnesses for being here today. I look forward to 
hearing your testimony.
    The Department of Defense personnel are found across the 
globe. They are witness to some of the most--the world's most 
intense conflicts, worst disasters, sectarian conflicts, and 
humanitarian crises.
    Because of their proximity and skill set, when these global 
security challenges and disasters emerge, including some that 
are the result of climate change, the Department of Defense is 
regularly called upon to bring to bear its unique abilities to 
support the humanitarian, stabilization, or disaster response.
    One of the most visible examples of the support was 
Operation United Assistance during the 2014-2015 Ebola crisis. 
Less visible is the Department's current role in the Syria 
Transition and Response, or START Forward, a whole-of-
government response in which the Department is enabling the 
State Department and USAID personnel to reach farther into 
Syria to provide humanitarian response.
    Most of the time, the Department has a support role while 
USAID or State leads the U.S. Government's [USG's] provision of 
humanitarian, stabilization, or disaster assistance. In this 
support role, the Department not only interacts with U.S. 
Government personnel, but also non-Federal entities, or NFEs, 
and non-governmental organizations. From the lessons we have 
learned over the past two decades, it is clear that close 
interagency coordination is absolutely essential.
    Civilian expertise, including that from outside 
organizations, can lead to more sustainable humanitarian 
assistance, a better picture for the global assistance 
necessary to set conditions for stability, less costly 
responses, and a fuller picture of the situation on the ground.
    Now, there are several challenges to consider as we 
evaluate the future of the Department's role in foreign 
assistance. Among the many challenges, State and USAID are not 
always able to reach as far geographically or provide the 
number of personnel necessary. The Defense Department, too, has 
limited resources and a broad mission set in a conflict zone 
beyond humanitarian or stabilization assistance.
    That is one of the many reasons why it is critical that we 
continue to fully resource diplomacy and development by funding 
the State Department--State Department and USAID at sufficient 
levels. Requests for the Department's resources should be 
considered only after fully considering the civilian 
alternatives.
    In fact, the 2018 National Defense Strategy summary 
highlighted the importance of reinforcing diplomacy and 
development tools to advance U.S. national security objectives. 
Ideally, our State and USAID colleagues, NFEs, or NGOs would be 
capable of responding. Outside of the U.S. government, NGOs 
operate in every developing country in the world, and the 
majority of their work includes countries that are in conflict.
    That means U.S. military, NFEs, and NGOs regularly 
interact. No matter the intent, militaries can risk--it can 
increase risk to civilians that interact with them, and the 
Department must consider their safety and security. That is one 
of the reasons why it is important that the Department 
continues to seek State concurrence and consult with USAID when 
working with NGOs and NFEs.
    Additionally, we have learned that the DOD has unclear 
guidance when engaging with NFEs. As such, the FY 2018 National 
Defense Authorization Act requires the Department to review, 
and update if necessary, applicable guidance.
    Finally, the interagency recently conducted a review of 
stabilization activities and released the Stabilization 
Assistance Review [SAR] report last month. Hopefully, the 
report lays out the roles and responsibilities of the State 
Department, USAID, and the Department of Defense in 
stabilization assistance.
    That said, the SAR suggests DOD should take a larger role 
in stabilization activities, which are defined as an inherently 
political endeavor. So, I am interested to learn more. As 
service members are often first on the ground, would this lead 
to the Department having an increasing role in political 
matters, such as governance assistance? Further, with limited 
resources, should DOD resources be available to other 
departments and agencies as a nonreimbursable basis--on a 
nonreimbursable basis, rather than a space-available basis?
    So, in closing, again, I want to thank our witnesses for 
their testimony. And thank them and their colleagues for their 
efforts to respond to the many humanitarian, stability, and 
disaster crises around the globe.
    With that, Madam Chair, I yield back and look forward to 
our witnesses' testimony.
    Ms. Stefanik. Thank you, Jim.
    As a reminder to our members, the order of questioning 
today will be to first call on all ETC members present, and 
then move on to the full committee members.
    I ask unanimous consent that nonsubcommittee members be 
allowed to participate in today's hearing after all 
subcommittee members have had the opportunity to ask questions. 
Is there objection? Without objection, nonsubcommittee members 
will be recognized at the appropriate time for 5 minutes.
    So just to note, we will have two panels. We will have this 
panel. We will go around for questions. And then invite the 
second panel.
    And I will now turn it over to you, Mr. Ladnier.

     STATEMENT OF JASON LADNIER, DIRECTOR OF THE OFFICE OF 
PARTNERSHIPS, STRATEGY, AND COMMUNICATIONS, BUREAU OF CONFLICT 
       AND STABILIZATION OPERATIONS, DEPARTMENT OF STATE

    Mr. Ladnier. Chairwoman Stefanik, Ranking Member Langevin, 
and distinguished members of the committee, thank you for the 
opportunity to testify on how the Department of State, the 
Department of Defense, and the U.S. Agency for International 
Development work together to maximize the effectiveness of U.S. 
foreign----
    Ms. Stefanik. Can you move the microphone a little bit 
closer? Yes.
    Mr. Ladnier. To maximize the effectiveness of U.S. foreign 
assistance generally, and particularly in conflict-affected 
environments.
    State works closely with other parts of the U.S. 
Government, as well as many international and non-governmental 
partners, to respond to some of the most challenging, complex 
global crises.
    Today, I will highlight how State engages with DOD and 
USAID to help ensure that we maximize the effectiveness of our 
respective resources in the realm of stabilizing conflict-
affected areas in order to further our national security 
interests.
    Just to put this into perspective, the U.S. Government-wide 
effort to furnish foreign assistance internationally is led by 
the Secretary of State, who is vested with the broad 
overarching responsibility and statutory authority for 
continuous supervision and general direction of U.S. foreign 
assistance, including security and economic, under the Foreign 
Assistance Act, the Arms Export Control Act, and many other 
statutes providing comparable responsibilities for securing the 
direction from the Secretary of State.
    For the purpose of furnishing all such U.S. Government 
assistance, there is intense interagency coordination among 
U.S. Government agencies, including USAID, which is a key 
implementer of U.S. foreign assistance, as well as with DOD, 
which is a key implementer--which is involved in implementing a 
wide range of its authorities with concurrence of the Secretary 
of State.
    For these purposes, the furnishing of assistance 
government-wide is subject to open and competitive bidding and 
procurement procedures, and the U.S. Government welcomes 
involvement of vetted U.S. NGOs and contractors as appropriate 
and consistent with relevant law and regulation.
    Through leadership and coordination, State seeks to 
maximize the impact of foreign assistance by strategically 
aligning resources to foreign policy goals, measuring what 
works, and promoting evidence-based policies. We appreciate 
Congress' continued support in this regard.
    An integrated whole-of-government approach is essential to 
maximize the impact of U.S. foreign assistance resources and 
advance our foremost foreign policy interests. State works with 
all the different U.S. Government agencies and departments that 
manage foreign assistance, including DOD, to align our efforts 
toward common goals and metrics. State's Office of U.S. Foreign 
Assistance Resources convenes interagency stakeholders and 
promotes coordinated approaches throughout the formulation, 
allocation, implementation, and monitoring and evaluation of 
Foreign Assistance's budget.
    Our chiefs of mission also play a crucial role in promoting 
the integration of all bilateral U.S. Government assistance at 
the country level. The chief of mission should concur on an all 
bilateral U.S. Government assistance provided in their country. 
State and USAID work with our embassies and missions abroad to 
maintain integrated country strategies, which provide a 
framework to guide all interagency efforts. Also, State and DOD 
in particular work closely at the field level to ensure a 
coordinated approach to the provision of foreign assistance, 
associate diplomatic, and defense engagement.
    State's Bureau of Political-Military Affairs provides 
approximately 90 foreign policy advisers to DOD in over 30 
locations globally, and receives 98 military advisers in 
return. Other bureaus may also contribute to liaison with 
combatant commands, and other units with whom they regularly 
coordinate.
    Using the Bureau of Conflict and Stabilization Operations 
[CSO] as an example, CSO maintains a senior conflict adviser 
within U.S. Africa Command's J5 Directorate for Strategy, 
Engagements, and Programs, and has previously assigned a 
counter-Boko Haram field representative to coordinate between 
special operations forces and multiple U.S. missions in 
Africa's Great Lake--Lake Chad region.
    Regular exchanges for training exercise and institutional 
education such as U.S.-Australia exercise Talisman Saber or 
U.S. Army special operations Jade Helm serves to build 
interorganizational relationships and familiarize each 
organization with each other's priorities and planning 
processes.
    A coordinated State, USAID, DOD approach is particularly 
important in conflict environments marked by fragility, 
extremism, and violent conflict. Many of our assistance 
resources focus on responding to complex crises from Colombia 
to Nigeria, Somalia, and the Philippines. As this committee 
knows, global conflict-related challenges have become 
increasingly complex and intractable.
    At the same time, the taxpayers are rightly demanding 
tougher scrutiny on how we spend these resources and avoid 
open-ended commitments. Cognizant of these challenges, State, 
USAID, and DOD last year launched the Stabilization Assistance 
Review, or the SAR. The SAR identified ways that the United 
States can best leverage diplomatic engagement, defense, and 
foreign assistance resources to stabilize conflict-affected 
areas.
    The final SAR report, approved by the Secretary of State, 
Secretary of Defense, and USAID Administrator and released last 
month, reflects hundreds of expert interviews, case studies, 
and analysis of spending and conflict data. It outlines a 
coordinated framework for targeting U.S. efforts to stabilize 
conflict-affected countries based on our national security 
interests and an assessment of where we can have the greatest 
impact.
    Most importantly, the SAR report affirms that stabilization 
is an inherently political endeavor, and to better align U.S. 
government diplomatic, defense, and foreign assistance efforts 
toward political goals and objectives, the SAR defines lead 
agency roles for stabilization efforts: State, as the overall 
lead for stabilization efforts, as with U.S. foreign assistance 
more generally; USAID as the lead implementing agency for non-
security stabilization assistance; and DOD as a supporting 
element to include providing requisite security and reinforcing 
civilian elements where appropriate.
    In all of these efforts, we work closely with a range of 
partners. The United States is committed to pressing our 
international partners to increase their share of the cost for 
responding to shared challenges and to holding our local 
partners accountable for demonstrating sustained leadership and 
progress.
    We also work closely with non-governmental and private 
sector organizations as we pursue and implement programs on the 
ground. In line with Federal regulations, State, USAID, and DOD 
identify implementing partners through open and competitive 
processes. This is important to help ensure that we achieve the 
most cost-effective result for the American taxpayer.
    As the Statement of Administration Policy, or the SAP, for 
the Senate's 2019 NDAA states, the administration recognizes 
the value of U.S. charitable organizations in its--and 
situations where a closer cooperation with U.S. military would 
be more beneficial. However, that SAP also notes objection to 
relevant provisions as it would provide preferential and 
unlimited access to DOD personnel, funds, and assets to 
implement non-governmental organizations' missions.
    State, with the administration, looks forward to working 
with Congress to shape these provisions in the NDAA so they are 
consistent with established best practices for foreign 
assistance and humanitarian assistance, to include appropriate 
State Department and USAID oversight.
    A chief consideration----
    Ms. Stefanik. Sir, we are--you are beyond your 5 minutes, 
so maybe in the questions you can wrap--if you could wrap it up 
in a final statement that would be great.
    Mr. Ladnier. Sure, 30 more seconds, please?
    Ms. Stefanik. You can have 15 more seconds, because I 
really----
    Mr. Ladnier. Great. A key component when you are evaluating 
a prospective partner is that they recognize the authority, 
guidance, and red lines set by the chief of mission, and also 
understand the need to be aware of humanitarian actors' unique 
identity.
    Thank you.
    [The prepared statement of Mr. Ladnier can be found in the 
Appendix on page 37.]
    Ms. Stefanik. Great. Thank you.
    Mr. Jenkins, you are recognized for 5 minutes, and we are 
going to stick to it.

STATEMENT OF ROBERT JENKINS, DEPUTY ASSISTANT ADMINISTRATOR FOR 
DEMOCRACY, CONFLICT, AND HUMANITARIAN ASSISTANCE, UNITED STATES 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Jenkins. Thank you, Chairwoman Stefanik, Ranking Member 
Langevin, members of the subcommittee, thank you for the 
opportunity to testify here before you today with my colleagues 
from DOD and the State Department on USAID's collaboration with 
both those agencies, on how we work together to advance key 
national security priorities.
    In my testimony I will describe how the executive branch 
agencies leverage their unique capabilities to respond to 
crises around the world, and how we are increasingly not just 
communicating, but actively collaborating with each other and 
our partners, including non-Federal entities, international 
organizations, contractors, and NGOs.
    Despite good intentions, experience highlights the need to 
coordinate, align, and sequence local assistance and security 
efforts. In response, we have deliberately focused efforts on 
our interagency communication, coordination, and collaboration, 
which are now at an all-time high.
    USAID has more than 30 staff serving side by side with 
America's military men and women, at the Pentagon, at the 
combatant commands, and at other military headquarters around 
the globe. Six months ago, every USAID mission and country 
office around the world appointed a mission civil-military 
coordinator to advise and work with DOD counterparts on country 
strategy and implementation.
    This has further institutionalized our relationship with 
DOD where it matters most: in the field. The Stabilization 
Assistance Review that Mr. Ladnier referred to has also 
facilitated that approach. Over the past year, teams from the 
Department of Defense, the Department of State, and USAID have 
reviewed the U.S. Government's approach toward stabilizing 
conflict-affected areas overseas.
    The SAR establishes a common definition of stabilization 
and supports a set of actions to improving stabilization 
efforts. The report also defines lead agency roles, as Mr. 
Ladnier spelled out.
    On the ground, USAID's long-standing relationship and 
coordination with DOD during natural disasters is the most 
visible example of our collaboration. For example, during the 
Ebola outbreak, USAID requested support from the U.S. military 
to bring speed and scale to the response and fill specific 
gaps. These included building Ebola treatment units, training 
healthcare workers, and running logistics operations to 
transport critical supplies. At the peak of the operation, 
nearly 2,500 soldiers deployed to the region as part of the 
U.S. military mission, along with USAID and State Department.
    In disasters, DOD is often used as a stopgap measure until 
civilian infrastructure can be brought to bear. During the 2016 
response to Hurricane Matthew, USAID utilized DOD helicopters 
to deliver critical supplies to the southern claw of Haiti, 
which was cut off from the rest of the island.
    USAID positioned two civil-military coordinators on the USS 
Iwo Jima to provide on-site coordination for air operations in 
support of USAID humanitarian requests. Once roads were 
cleared, civilian partners were able to truck in supplies more 
consistently and cost-effectively. When working with our 
partners, as well as assisting DOD and State Department and 
assisting DOD in selecting its own NFEs, we want to use the 
right tool in the right place at the right time.
    This limits unintended consequences and working at cross 
purposes. As part of this, State and USAID concurrence is 
necessary before DOD enters into an arrangement with an NFE at 
the country, GCC [geographic combatant command], and global 
levels. It is also consistent with our approach in how we 
collaborate with DOD on the provision of OHDACA [Overseas 
Humanitarian, Disaster, and Civic Aid] funding.
    We also realized how much time, access, and coordination 
are of the essence. As demonstrated most recently in Syria and 
Somalia, the lack of standardized mechanisms to co-deploy U.S. 
Government civilians and to provide immediate stabilization 
activities impedes on our ability to seize critical windows of 
opportunity. Working along the DOD--working alongside DOD on 
the ground enables us all to better plan, monitor, and assess 
local conditions vital to stabilization objectives.
    Madam Chairwoman, members of the subcommittee, crises 
cannot be solved by hard power alone. Our close coordination 
with DOD and the State Department, through combined disaster 
response and cooperation in steady-state locations is more 
important now than ever.
    Thank you for your time. I look forward to taking your 
questions.
    [The prepared statement of Mr. Jenkins can be found in the 
Appendix on page 43.]
    Ms. Stefanik. Thank you.
    Mr. Mitchell, you are recognized for 5 minutes.

   STATEMENT OF MARK E. MITCHELL, PRINCIPAL DEPUTY ASSISTANT 
   SECRETARY OF DEFENSE FOR SPECIAL OPERATIONS/LOW-INTENSITY 
                CONFLICT, DEPARTMENT OF DEFENSE

    Mr. Mitchell. Good morning, Chairwoman Stefanik, Ranking 
Member Langevin, other subcommittee members. It is a pleasure 
to be here before you again today and have the opportunity to 
talk about DOD's support to foreign assistance. I want to say 
thanks for your continuing support of the Department in our 
humanitarian assistance missions.
    I am pleased to be able to discuss DOD's work with non-
Federal entities, also known as NFEs, overseas, and 
particularly how NFEs support DOD's humanitarian assistance, 
humanitarian demining, and support to stabilization in support 
of USAID and the Department of State.
    In all of these activities, DOD plays a supporting role, 
assisting the work of the Department of State and USAID. In 
these scenarios we encourage our DOD components to work with 
NFEs when we know that that cooperation will enhance the 
effectiveness of DOD support and complement the larger efforts 
of State and USAID.
    A great example of this cooperation is the instrumental 
support provided by NFEs to U.S. SOUTHCOM [Southern Command] in 
the last two Continuing Promise training missions. Continuing 
Promise is a U.S.-led medical assistance program integral to 
building regional partnerships and improving defense 
cooperation in South and Central America.
    NFE contributions included 548 medical professionals, $3.2 
million of medical services, and over $2.5 million of medicine, 
supplies, clothing, and high-nutrition meals that served over 
24,000 citizens in the region. This NFE support is one of DOD's 
most powerful and indispensable tools.
    That said, in accordance with the 2018 NDAA, earlier this 
year my office conducted a review of DOD's collaboration with 
NFEs and we found that the combatant commands did not have a 
consistent view on what constitutes legal and ethical support 
in engagement with NFEs. Despite the promising collaborative 
potential, there have been instances where the commands have 
been hesitant to receive, transport, or deliver goods from NFEs 
outside of the contracting and procurement process.
    We found the primary reason for this hesitation is due to 
well-founded concerns about providing or appearing to provide 
preferential treatment. However, some commands have developed 
excellent and mature processes, like Southern Command, for 
receiving and vetting NFE requests to support DOD, 
humanitarian, and other assistance activities. To address this 
issue, my office has drafted a consolidated guidance to ensure 
that DOD components have a consistent view on how to work with 
NFEs in support of their various missions.
    If and when approved, the draft guidance is not new policy, 
but rather consolidates existing policies and provides a 
framework for future agreements between DOD and NFEs. The exact 
requirements of these agreements are going to be situationally 
dependent and as a result, our guidance is not overly 
prescriptive. First, the guidance defines what constitutes an 
NFE, a qualified NFE: U.S.-based, have an independent and 
regularly audited board of directors, are privately funded, are 
tax exempt under 501(c)(3), provide donated goods and 
associated services, and do not seek or hold DOD contracts.
    Second, the guidance allows DOD to accept donated goods, 
personnel, and cargo to have--actually to have--to have donated 
goods, personnel, and cargo like those associated with NFEs, be 
transported on a space-available noninterference basis. This is 
permitted in accordance with the Denton Program, authorized by 
title 10, section 402 in our transportation air eligibility 
policy.
    Third, we have extended this authority overseas so 
commanders can use our overseas facilities. And again, at no 
additional cost to DOD. Finally, our guidance requires that any 
DOD partnership with an applicable NFE be cleared by the 
relative lead Federal agency for the mission, either State or 
USAID, and both in some circumstances. This is consistent with 
all DOD support to State and USAID.
    To summarize, for qualified NFEs, DOD air transportation 
facilities are available on a nonreimbursable, space-available, 
and noninterference basis to all qualified NFEs.
    On that note, I would like to return the remainder of my 
time to you. Thank you.
    [The prepared statement of Mr. Mitchell can be found in the 
Appendix on page 52.]
    Ms. Stefanik. Thank you.
    My first question, and it is for the whole panel, you 
mentioned, Mr. Ladnier, in your opening statement, the recently 
completed Stabilization Assistance Review, the SAR. And I am 
curious, going forward what is the process in the coming months 
for this review to help you?
    How are you ensuring that some of the recommendations in 
the review are integrated so that each of your organizations is 
properly aligning ends, ways, and means to advance our 
stabilization efforts on the ground?
    And then what are the areas that you think will require the 
most effort? Is it building the capacity of a civilian 
expeditionary workforce? Is it ensuring flexible funding? Those 
are just two examples.
    Mr. Ladnier, I will start with you.
    Mr. Ladnier. Madam Chairwoman, thanks for the question.
    So first and foremost, when the SAR--in the process of 
drafting a SAR and as it was finalized, it was--we worked hand 
in glove with the NSC [National Security Council], and there is 
an NSC policy coordinating committee that focuses on fragility 
and stabilization. And they have adopted the SAR and are 
serving to support the implementation as we implement the 
different recommendations that State, USAID, and DOD had the 
lead for.
    So there is an implementation plan and a work plan to make 
sure that we move out on these recommendations. And that is 
going to be followed by the NSC.
    Secondly, we are looking at piloting the SAR in a couple of 
key countries over the next 12 months. And it is really where 
we are going to learn how this--the rubber hits the road on 
this issue. And so that will be important.
    As far as your question on the challenges, what the SAR 
found was all of our systems, both the executive and 
legislative branch, incentivized a focus on the money and a 
focus on getting the outputs--inputs and outputs, and in many 
ways allowed us to lose some of the focus on the political 
objectives while we were there.
    And so part of the process has been socializing. We have 
talked to a number of committees, we have talked to OMB [Office 
of Management and Budget], to NSC, and it's really 
understanding that if we all agree that it's the political 
outcomes we are looking for, then there might be a little less 
pressure by the systems involved to push money out the door. 
Because that was seen as more is not necessarily more 
effective.
    I think secondly--and this is a challenging one--but we are 
working very closely across the three agencies and internally 
to look at the issue of risk management and how we can 
understand the trade-offs inherent in both keeping our people 
safe, but also achieving the mission.
    So I think those two--I think progress in those two over 
the coming year will be integral.
    Ms. Stefanik. Which countries are we conducting the pilot 
programs in?
    Mr. Ladnier. We haven't--that hasn't been finalized yet. 
But we would be happy to bring that back to you all once we do.
    Ms. Stefanik. Yes, that would be important for this 
subcommittee to know, so we will follow up on that.
    Mr. Jenkins.
    Mr. Jenkins. Thank you very much. And thank you for 
highlighting the SAR, because in my 21 years of experience, I 
have never seen interagency cooperation work to the degree that 
it has on the SAR, and we are actually very, very proud of it.
    Further to the plan--or part of the plan that Mr. Ladnier 
laid out, there is some other key things that are already 
happening that are vested within the spirit of the SAR. One is 
Mr. Mitchell's team is revising the DOD guidance, in fact the 
doctrine, on stabilization. That is 3000.05. And the guidance 
as it's currently being written is absolutely consistent with 
the SAR, so it is becoming doctrine as we speak.
    We are also working, all three departments, on a global 
memorandum of understanding or agreement on how we can co-
deploy civilians with our military colleagues on a global 
scale. That will help us get out in front of the very long, 
very torturous process it has taken us in the past.
    We have a great example right now of civ-mil [civilian-
military] coordination going on in Syria with the START Forward 
platform, where a very small team of USAID and State Department 
personnel are co-deployed with our military colleagues. And it 
is working perfectly, except it took us a very long time to get 
there. We have similar experience from Somalia.
    So as we work on that MOA [memorandum of agreement], that 
should make us--enable us to be much faster and take advantages 
of windows of opportunity, because those windows are often very 
fleeting.
    There is also the legislative proposal that DOD and the 
administration came for with a--came forward with this year for 
an authority for stabilization funding for DOD in support of 
State and AID [Agency for International Development].
    It is $25 million. It is very small. It is time-limited to 
2 years. And in that proposal, which we all support, very much 
so, says that DOD can only take--would only be able to 
undertake stabilization activities with the concurrence of the 
Secretary of State and in consultation with USAID and OMB.
    Lastly, Madam Chairwoman, you mentioned two key things. 
What is it going to take to get a civilian corps ready and 
people trained up so we are ready and have enough people that 
are able and willing to deploy fast? That will be a challenge. 
And what will be the flexible funding needs to make sure we are 
able to bring all of our unique capabilities to bear together 
when we need to?
    Thank you.
    Ms. Stefanik. Thank you.
    Mr. Mitchell.
    Mr. Mitchell. The--as Mr. Jenkins mentioned, the Department 
has currently drafted a new directive on defense support 
stabilization that is going to codify, within the Department, 
our core responsibilities during stabilization efforts, the key 
elements of defense support to stabilization, and make sure 
that we institutionalize the lessons from the SAR and START 
Forward. That directive is currently undergoing a legal 
sufficiency review. Once that is complete, it will go to the 
Deputy Secretary of Defense for approval.
    I also want to mention we are working on the--that global 
memorandum of agreement, and voice my support for the 
legislative proposal, and why we in the Department of Defense 
think that is a critical capability for us to have.
    As we have noted, stabilization is a political activity, 
but there are times when we are on the ground, as you noted in 
your opening comment, and State and USAID--the security 
conditions do not permit them to be there with us, and where 
there are immediate needs that we recognize that need to take 
place to, as we say, prime the pump for stabilization.
    We do not want to have a long-term responsibility for it. 
We want to continue to work with our State and AID partners. 
But I think there are limited circumstances where we could use 
that.
    Ms. Stefanik. Thank you.
    Mr. Cooper.
    Mr. Cooper. Thank you, Madam Chair.
    None of this is your fault, but I don't know a single area 
of government that is more widely misunderstood back home or 
more widely criticized because lots of constituents think that 
somehow the, quote, ``foreign aid budget,'' is almost half of 
government spending, and if we could just eliminate it, then we 
could cut our taxes or balance the budget.
    As I say, none of this is your fault, but we need to worry 
about a domestic component of what you are doing so that people 
can put this in proper perspective, 'cause my folks, when they 
think of soft power, they just generally think that is soft. 
They don't see the power aspect of it.
    So we live in a time when even the State Department budget 
itself is a tiny fraction of the DOD budget, USAID has been 
handicapped for years now, and we are 17, 18 years into nation 
building. And this is a subject that is also widely ridiculed. 
One of the most prominent novels from Afghanistan War was Phil 
Klay's ``Redeployment.'' He highlights a program there that was 
beekeeping for Afghan widows, and that apparently allowed U.S. 
bureaucrats to check all the boxes for projects. It was partly 
agricultural, partly war widows, partly female, partly, you 
know, all this stuff.
    So how do we do a better job of helping people understand 
the needs out there, the effectiveness of U.S. soft power? And, 
you know, a lot of folks, if I tell them back home, ``we have 
got a SAR going now,'' and they say, ``Oh, yeah? Eighteen years 
after we started getting involved in Iraq/Afghanistan? And it's 
a whole-of-government approach?'' They are really going to be 
impressed by that, because they thought government was supposed 
to coordinate already.
    So again, none of this is your fault, but we have got to 
fix this problem. What would you suggest?
    Mr. Jenkins. Thank you, Congressman Cooper. You are right. 
It is always a challenge selling to the American people the 
importance of what foreign assistance does. We all understand, 
as you noted, that there are a lot of hard lessons to be pulled 
from the last 15 to 17 years, and that is exactly what this SAR 
does.
    In a nutshell, it tells us that small actually is 
beautiful; that even though we are the strongest nation in the 
history of the globe, we can't solve problems just by throwing 
money and throwing people at those problems. We have to be 
smart. We have to use analysis. We have to listen to the people 
on the ground who have the best ideas always, and by that, I 
mean the people that live there. And we need to have political 
will on the partners that we are working with.
    We often say, ``we can't want it more than they do,'' and 
yet, we move ahead when we don't--when they don't. The SAR and 
our collective action says moving forward, we are going to put 
some guide--some guideposts in there. We are going to say every 
year, ``is this working, or is it not?''
    There are great examples of where it has: Plan Colombia; 
the last 10 years of the work that have gone--has gone on in 
the FATA [Federally Administered Tribal Areas] in Pakistan. I 
haven't heard Waziristan in the news for a very long time now; 
it used to be one of the most dangerous places on Earth, and 
sadly, it might become that again.
    But using our soft power when it works, along with their 
hard power, is exactly what the American people need for their 
safety. It is hard to sell that, but I know every--I don't know 
a single American that isn't inspired when they see one of 
those C-17s landing in a foreign land, and the back of the 
plane opens up, and those pallets of USAID-branded supplies and 
food come out. Or in Nepal, in the earthquakes, watching those 
Marine helicopters deliver vital life-saving supplies in the 
farthest, farthest reaches of the mountains of Nepal.
    This is important stuff. This is critical stuff, and we all 
have to work together to let the American people know this is 
not charity; this is national security. And it is also the 
right thing to do.
    Thank you.
    Mr. Ladnier. Sir, thank you for your question.
    A first point: it is known the constraints that the State 
Department has on telling its story to the American people, but 
I would laud and would be happy to share some of the work that 
our Office of Foreign Assistance is doing. And they have 
created an interactive website where each state, individuals in 
each state can go and look at what the State Department is 
doing to promote the interests of that state of this country. 
So we are happy to share that, and that is a baby step in that 
direction.
    Your point about checking the boxes is exactly what this 
SAR is trying to push against, and the call for a strategy that 
is politically focused, targeted, that is key on, as Mr. 
Jenkins said, us understanding when we want it more than our 
counterpart, and finding ways to make that--to avoid that 
situation, or walk away.
    Two things that I would highlight----
    Ms. Stefanik. Time is expired.
    Mr. Scott.
    Mr. Ladnier. But----
    Ms. Stefanik. We can take the rest of it for the record.
    Mr. Scott, go ahead.
    Mr. Ladnier. Okay.
    Mr. Scott. Thank you, Madam Chair. Just a quick point, I 
would like to point out that we didn't receive some of the 
testimony until this morning. That seems to be a continued 
problem with multiple agencies in not getting us testimony in a 
timely matter so that it can be reviewed prior to the hearings.
    I want to mention a couple of things. I think this is an 
extremely important part of who we are as Americans, and I 
think that--I think it is charity as well as national security, 
Mr. Jenkins. And I think that being charitable is part of who 
we are as a country. I appreciate your comments on that. But I 
don't think there's anything wrong with us calling it charity, 
as well as national security.
    And I agree with you, when the back end of an Osprey or a 
C-17 opens up, and there are pallets, whether it be of water, 
or of food, or of medical supplies, whatever that humanitarian 
assistance is, I take pride in the fact that Americans are 
providing that. And I will tell you, if we asked for the--for 
Americans to contribute in addition to their tax dollars to it, 
I think that we would be taken aback at how much the American 
citizens would give.
    I have one request, and this comes--I have a facility. MANA 
is actually produced in Fitzgerald, Georgia; it is a ready-to-
eat paste. When I look at the packaging that we have, just one 
suggestion: I think that the American flag or the USAID symbol 
should be more prominently displayed on the packaging as we 
move forward. I think that we want people to know where it 
comes from, and I think that the American flag still stands for 
freedom throughout the world. And so just a suggestion for 
USAID, that the American flag and the USAID symbol should be 
more prominently displayed when we provide that.
    Mention a couple of things very quick, before I get into 
the one question that I have. When I was in Djibouti earlier 
this year, I noticed that the Chinese had a hospital ship where 
they are now providing humanitarian assistance in countries. I 
was a little taken aback by that, because that was a stark 
change in their approach to influence in countries.
    It has typically been almost bribery or payday loan-style, 
but I noticed the hospital ship, and it's one of the things I 
remember from that trip. And yet, the United States Department 
of Defense has proposed to standdown one of our hospital ships. 
We have stopped that through the National Defense Authorization 
Act without providing, prior to that proposal, a plan to 
replace that mission.
    Now, I understand that DOD has come forward with a plan to 
replace that mission, but I know we are not here to talk about 
DOD and hospital ships. But that is part of our humanitarian 
mission, and I do think it is important that we understand that 
China is exerting their influence through humanitarian efforts 
now, as well.
    My primary question gets back to, Mr. Jenkins, you talked 
about kind of the timeline, if you will, and we have these 
moments when we need to move very, very fast to get aid, the 
right aid to the right place at the right time. And more 
oftentimes than not, that gap is of a very short duration. So 
my question gets to the interagency approval process. The role 
of State by which foreign assistance such as disaster relief, 
humanitarian aid, and stabilization support, what is the 
approval process and the approval process for something that 
happens like a storm or a tsunami versus something that happens 
in an area that may be a result of a combat zone or some other 
type of civil unrest?
    Mr. Jenkins. Thank you for your question and thank you for 
your comments regarding USAID and branding from the American 
people. The last 2 days I have been in meetings with both my 
acting deputy administrator and Administrator Mark Green 
precisely on that topic, about what more we can do to make sure 
that more of our beneficiaries get the message that this is 
coming from--as part of the generosity of the American people 
and the American taxpayer.
    Regarding a rapid onset disaster, part of our agency is 
geared exactly to that. Our Office of Foreign Disaster 
Assistance [OFDA] has teams that monitor every volcano, every 
earthquake, every possible tsunami in the world 24/7, every 
day. If there is a rapid onset disaster, the ambassador at the 
U.S. embassy in that country sends what is a cable back to 
Washington.
    But if it doesn't--it doesn't have to wait for that cable, 
they declare a disaster, OFDA takes that cable, immediately 
goes into action mode, assembles, if need be, what is called 
response management team here in Washington, and deploys a 
DART, a disaster assistance response team.
    Sometimes, as we saw last year with the Mexico--or Mexico 
City earthquake, that included search and rescue teams from Los 
Angeles County that were flown on C-17s provided by the 
military. We respond to about 65 different disasters every year 
in about 50 different countries, more than a disaster a week. 
In about 5 to 10 percent of those, it's beyond our ability to 
respond as fast as we need to, so we turn to the U.S. military 
to bring us speed and scale. Usually that is logistics and 
transport on heavy air transport.
    Ms. Stefanik. The time is expired.
    Mr. Veasey.
    Mr. Veasey. Thank you, Madam Chair.
    I was wondering, you know, what sort of efforts are put in 
place to plan for the future, and specifically what I mean is 
stabilization in the future. You take a place like Syria where 
we obviously have a stake in Syria right now. So if the Assad 
regime were to fail and be overthrown by factions that we are 
helping there, what do our agencies--what are they doing now to 
make sure that these are people that we can work with in the 
future as far as governance is concerned?
    Of course, we have had some issues with people that we have 
helped in the past and I am just curious, like what sort of 
preliminary plans are being put in place to help aid in 
something like that?
    Mr. Ladnier. Thank you for your question.
    And globally, whether it be the case you mentioned or 
others, parts of our agencies work together to do scenario 
planning, contingency planning, and to make sure that they 
speak to some of the key policy questions so that you know what 
you may have to deal with at the time. So it would be case 
specific. Some of them are more robust than others. We know 
that our DOD colleagues have more plans on the shelf than the 
civilian side, but I think that has been--that is something 
that the SAR is calling for, is much more of an increase in the 
civ-mil planning together using these principles and thinking 
about contingencies and what could happen.
    It is something that doesn't come by nature to some parts 
of the bureaucracy, but we are working on that.
    Mr. Veasey. Do you think the factions that we have--that we 
support in Syria right now, do you think that they are, you 
know, manageable or can govern if there were a regime change in 
that country?
    Mr. Ladnier. There are others back at the Department that 
would give you a better answer than that, so we will take that 
back and get you an answer on that.
    Mr. Veasey. What about as far as in terms of anyone that we 
help, them being someone that can get along with their 
neighbors? Obviously, you know, with Iraq, for instance, you 
know, we have seen that now there's an allegiance with some 
factions there with the people next door in Iran.
    And my question is as far as them--as far as people being 
able to--someone that we help, what sort of things do we put in 
place to make sure in places like Syria, or it can even be some 
place in Africa, that after we do help stabilize, if they won't 
try to destabilize their neighbors because of some religious 
differences or some other long-term differences that may be in 
place?
    Mr. Ladnier. I think the best answer is that we try to 
understand internally, across the U.S. Government, what our red 
lines are and how certain policy priorities rack and stack 
against each other, that for any country you may allude to, we 
have counterterrorism priorities, conflict and stabilization 
priorities, trade priorities. And so those all have to be 
understood in a broader picture.
    And so I think the issue is being very clear about what our 
priorities are, what our red lines are, and then being prepared 
through some thoughtful forethought with contingency planning. 
But it--there's no panacea, but I think it's just us being 
honest with ourselves about what our priorities are in place 
and then executing as a--as a whole of government.
    Mr. Veasey. Are those sort of things looked at before 
regime change takes place? Are there plans, people looking at 
those things like, you know, a year, you know, 2 years in 
advance, depending on what the military may come back with as 
far as their assessment on when a regime change may take place?
    Mr. Jenkins. I will just add, sir, that we have USAID and 
State Department personnel at the geographic combatant commands 
that are engaged with the planning efforts that DOD has every 
single day. So as much as DOD plans, and they are good at 
planning, we make sure that civilians have input into all of 
those plans. And if need be, our folks come back to Washington 
and tell us, hey, we need some help.
    I was down in Tampa just a few weeks ago. I go to Tampa, 
others go to PACOM [U.S. Pacific Command] much more than I 
would have thought as a USAID person, but rest assured, while 
it is this crazy world and we don't know what is coming down 
the pike, the planning efforts that your government--our 
government--undertake are being done as a whole of government 
right now.
    Mr. Veasey. Okay. Thank you.
    Madam Chair, I yield back.
    Ms. Stefanik. Mr. Mitchell, did you want to answer that 
question?
    Mr. Mitchell. I just wanted to add that it--of course the 
Department is very attuned to places where there may be a 
regime change like that. But even when we have democratic 
elections with some of our allies and partners, we encounter 
some of the same challenges. And so it's something that we work 
very closely with across our partnership with State, AID, and 
the White House and the NSC.
    Ms. Stefanik. Mr. Hice.
    Mr. Hice. Thank you, Madam Chair.
    The Stabilization Assistance Review had one sentence that 
particularly caught my eye. It said that stabilization 
assistance is not an entitlement and continued U.S. Government 
assistance should depend on results. What a great statement.
    So, Mr. Ladnier and Mr. Jenkins, I will direct this to both 
of you. I would like to hear from both of you on this: What are 
we doing to better design and sequence our aid in such a way 
that tax dollars are being used most effectively?
    Mr. Ladnier. Thank you. Thank you for your question.
    And I think we must--the SAR, looking back over the last 
few decades, understood that in the past we focused on perhaps 
not the exact right indicators. We were more focused on inputs 
and outputs and counting things.
    And I think where we are now, what the SAR asks for, is to 
really pull from social science, from anthropology, from all 
the fields that truly understand what is the political game in 
a place and is it moving in the right direction to support our 
national interest? That is what the SAR is saying must be in 
place and let's have a seat at the policy table.
    So I think, to be humble--and I think we are still trying 
to learn how that works and how you feed that into a 
policymaking process that has all the demands and the urgency 
placed on it. But that is exactly--there's a specific 
deliverable in the SAR to work on better measurements of our 
impact.
    Mr. Jenkins. And thank you for your question. If you look 
at where assistance and stabilization assistance has been 
successful, there are three key components always.
    You need security first. It doesn't make any sense to build 
a school if people are afraid to send their kids to that 
school. So don't waste the time and don't waste the effort and 
don't waste taxpayer money building a school until there's 
adequate security.
    Two, you need a willing partner that has political will to 
be a partner, and we need to find partners in these places that 
want what we want, and we can't want it more than them. And 
that is one of the things we need to assess over time, it is 
laid out in the SAR. If we start an endeavor, we need to keep 
checking in to see if that endeavor's making sense and if we 
have the right partner.
    And then three, you need time. You can't change the 
strategy every year. You have to be tenacious. You have to know 
there's going to be some good days and bad days. You need to 
have the strategic patience to see the plan through and stay 
the course long enough, but checking in constantly to see if 
that is still the same course.
    Mr. Hice. I get that, but it really doesn't answer my 
question, in all due respect. The question is, what are we 
doing to make sure that we are getting results that the 
taxpayers deserve? I mean, I understand what ought to be out 
there, but what are we doing to ensure that happens?
    Mr. Jenkins. Thank you.
    So what we are doing now is we are taking this SAR, we have 
taken the lessons learned, we have taken the recent SIGAR 
[Special Inspector General for Afghanistan Reconstruction] 
report on stabilization in Afghanistan, and now we are moving 
ahead to implement those lessons. The things of now that we 
have been saying in the SAR are being validated by other 
reports----
    Mr. Hice. Do we have enough time, under the bridge, to 
determine whether or not we are getting the desired results?
    Mr. Jenkins. We are, in some places. And we are not getting 
the desired results in other places. And we have to be very 
wide open about--and eyes open on what do we need to do better?
    So what we have now assembled is a way forward that is 
going to do that based on data, based on analysis.
    Mr. Hice. I'd like to see some of the data that already 
exists in some of those nations, if you can provide that for 
us. I would appreciate that.
    Mr. Jenkins. I would be happy to provide that.
    Mr. Hice. What are we doing to ensure that host nations are 
following through with their commitments, specifically in terms 
of places where corruption exists and some of these other 
things?
    Mr. Jenkins. So, one of things we have started at USAID 
under this administration and our administrator, Mark Green, 
has brought in, is we are developing a system--a set of metrics 
where we will be doing exactly that. Those are still 
underdeveloped--under development, but looking at every country 
is on its own path to self-reliance. We need to gauge what our 
role is in helping them or not helping them based on some of 
the factors exactly that you are saying right now.
    It doesn't make any sense to be doing democracy programs 
with a government that doesn't want to become democratic. And 
it doesn't make any sense to continue to do anti-corruption 
programs within ministries or governments that don't care 
because they want to be corrupt.
    Mr. Hice. And that was really your second point that you 
brought up of the three, where those governments have to want 
it. Are--do the assistance that we provide come with any good-
government mandates?
    Mr. Jenkins. As----
    Mr. Hice. Or should it?
    Mr. Jenkins. As Mr. Ladnier said, it's different in 
different places, depending on what our primary national 
security goals are there.
    Ms. Stefanik. Time has expired.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Madam Chairman, and for having this 
hearing.
    Mr. Jenkins, I have a question for you first.
    We often see the U.N.'s [United Nations] bureaucracy as 
being slow and ineffective. So this led the United States, as 
Vice President Pence was working on last October, in an article 
I have, to bypass the U.N. and provide aid directly to the 
Yazidis, the Christians, and other persecuted minorities in 
northern Iraq directly through USAID and USG partnerships with 
faith-based organizations that were in the area, as opposed to 
working through the U.N.
    How has that worked? And should we consider doing that more 
often in the future?
    Mr. Jenkins. Thank you very much.
    Just before the July Fourth holiday, my administrator, Mark 
Green, conducted a trip to the Nineveh plains to personally 
look at the situation you are talking about. We are now in the 
process of, based on his observations, developing a plan to 
maximize everything we can do to help the religious and ethnic 
minorities in the Nineveh plains.
    Part of what we have seen, though, is it makes sense 
sometimes to work with the United Nations, where what they are 
doing and what we want to be done are in alignment. They are 
one of the many tools we have and we wouldn't want to say we 
are not going to work with the U.N. In fact, we need the U.N., 
when you look at what the World Food Programme does every day 
to save starving children.
    But what we need to do--and this is what we would like to 
do it everywhere--when we say we need the right partner, in the 
right place, at the right time, is have a suite of different 
capabilities to go to. Sometimes it will be the United Nations. 
Sometimes it will be a large international NGO. Sometimes it 
will be a local faith-based organization. Sometimes it will be 
a contractor.
    Mr. Lamborn. But is it working in the Nineveh plains?
    Mr. Jenkins. I believe--it is not working to the degree 
that we need it to be working, and that is why we are doubling 
down our efforts right now and coming up with plans that will 
be announced in the next coming weeks of what more we are going 
to do.
    Mr. Lamborn. Okay. If you could keep us apprised of that, 
we would appreciate that.
    Mr. Jenkins. Happily, sir.
    Mr. Lamborn. And then secondly, for all of you on the 
panel, the use of emerging technologies--and if you already 
discussed this, pardon me, because I was in a markup in another 
committee earlier and I was late getting here.
    But has the U.S. Government been able to identify new or 
emerging technologies that can better use metrics and document 
the progress or lack of progress of humanitarian assistance and 
outreach in high-conflict zones?
    Mr. Ladnier. Thank you for your question. That is actually 
one of the more exciting parts of the work that is being done 
in this field, is looking at, whether it be satellite imagery, 
whether it be the ability to crunch large numbers of data, 
crowd sourcing of public opinion. All of that information is 
being brought in and being looked through by PhDs, social 
scientists to say what--early warning, how do we get ahead of 
the curve on this? How do we understand all the different 
trends? And how do we understand who the key actors are?
    So we would be happy to come back on--and give a 
conversation about that particular topic because we do think 
that it has made advances.
    The challenge is, how do you feed that into a policymaking 
process? And I think that is where the rubber hits the road. It 
is because the best information that doesn't make it through 
into the key conversation is not useful, so I think that is 
where the next step needs to go.
    Mr. Jenkins. And specifically on humanitarian assistance, 
my agency, and particularly my bureau, has a standing 
relationship with MIT [Massachusetts Institute of Technology] 
Lincoln Labs, where we literally can call them on the phone and 
say, ``We have a problem that we want you to look at.'' And 
they immediately get to--they have a team, about 45 people, 
specifically on humanitarian assistance.
    That is changing the packaging of our food products. That 
is helping us monitor and evaluate, trying to find how do we 
track that food to the final point somewhere in--in rural 
Somalia. It is where do we position the--the warning sirens 
around Mosul Dam, should that dam break.
    And it--we are using it every day, trying to use all the 
best technology we can and the brightest minds to help solve 
what--some of these really, really sticky but critical 
problems.
    Mr. Mitchell. At the--as we rolled out the Stabilization 
Assistance Review several months ago, State Department hosted a 
group of business executives and non-governmental 
organizations, international organizations to brief them on 
that.
    I had the pleasure of sitting at a table with several tech 
executives who were developing exactly the kind of stuff you 
are talking about to utilize social media and the information 
technology infrastructure to gather information. And that 
Stabilization Assistance Review and the implementation of that 
is also providing us additional access to them.
    Mr. Lamborn. Okay. Thank you all.
    Ms. Stefanik. Okay. Time has expired.
    Thank you very much to our first panel of witnesses. I know 
there are a few follow-ups and we would like answers for the 
record. Thank you for your thoughtful answers on this critical 
discussion.
    I now want to transition to the second panel of witnesses. 
And I will wait until you guys switch.
    Mr. Mitchell. Thank you very much.
    Mr. Jenkins. Thank you.
    Ms. Stefanik. Thank you.
    Welcome to the second panel, where we will hear the NGO 
perspective.
    We have Mr. Julien Schopp, Director of Humanitarian 
Practice at InterAction, which is an alliance of NGOs and 
international partners. And we have Ms. Melissa Dalton, Senior 
Fellow and Deputy Director of the International Security 
Program at CSIS [Center for Strategic and International 
Studies], as well as the Director of the Cooperative Defense 
Project.
    We look forward to both of your testimonies. And, Mr. 
Schopp, I will start with you; 5 minutes.

STATEMENT OF JULIEN SCHOPP, DIRECTOR FOR HUMANITARIAN PRACTICE, 
                          INTERACTION

    Mr. Schopp. Madam Chair Stefanik and Ranking Member 
Langevin, members of the committee, thank you very much for 
inviting me to testify on this important topic.
    So as you mentioned, I work for InterAction, which is the 
largest alliance of international NGOs in the U.S. And our 
members regularly operate in areas where the U.S. military is 
active, either in sudden-onset disasters or in armed conflict.
    So today, I would like to provide a better understanding of 
the NGO perspective on humanitarian assistance and when, how, 
and why our members decide to coordinate, or sometimes not 
coordinate, their activities with the U.S. military. So what we 
call civ-mil coordination.
    So, first of all, a little--a few points on humanitarian 
action as we define it. Humanitarian action is assistance for 
and protection of people affected by natural hazards or armed 
conflicts. And NGO mandates are guided by the humanitarian 
imperative to save lives and reduce human suffering wherever it 
happens.
    And in order for this to be as effective as possible from 
our perspective, we rely on four principles. The first one is 
humanity. So human suffering must be addressed wherever it is 
found. The second one is impartiality. And by that, we mean 
that we need to carry humanitarian assistance based on need 
alone, without any other considerations, be it nationality, 
race, gender, religious beliefs, political opinions or whatnot.
    The third principle with which we work is neutrality. 
Humanitarian actors must not take sides in hostilities or 
engage in controversies of a political nature or religious or 
ideological. And, finally, independence. Humanitarian action 
must be autonomous from the political, economic, military, or 
other objectives that any other actor may hold in the area 
where we operate.
    So these are the recognized four humanitarian principles 
that guide humanitarian organizations in their work. And they 
are really a tool to convince the people that we assist that we 
are not part of a broader effort, be it military or political.
    And this is more and more important today, because as much 
as we have talked until now about natural disasters, in 
reality, NGOs today, 80 percent of their work is in conflict 
zones or working with people that have been displaced as a 
result of conflict, and only 20 percent in natural disasters. 
And 20 years ago, this proportion was opposite. So I think that 
changes the nature of our work, and this is why this is very 
important.
    As it relates specifically to civ-mil coordination, this is 
an essential dialogue for us between the military and the 
civilians present in the same theater of operations in 
humanitarian emergencies. There is a large spectrum of means to 
engage with the military, but we will just focus on two.
    The first one is cooperation. And that is really more--
happens more in natural disasters, as was discussed previously. 
And this is where there's a common goal of all parties. And as 
has been mentioned previously, a good example of this has been 
the Ebola response, where the military assets were bring to 
bear. There was civilian leadership from our colleagues from 
USAID. And on the ground, it was NGOs that were actually 
implementing the programs to stem the epidemic and to deal with 
community mobilization and the health response.
    The other type of relationship that we have with the 
military is what we call coexistence. And that is more often 
seen in situation where the U.S. military is either a direct 
party to the conflict or perceived to be a direct party to the 
conflict. And that is the case in some of the settings that we 
have discussed: Afghanistan, Iraq, Syria, or Yemen.
    So, in this instances, NGOs tend to try to maintain a clear 
distinction between themselves and military actors, again to 
not be perceived to be part of the military effort.
    And from our interactions with military colleagues, they--
they often tell us that they also see that the use of military 
capabilities to deliver a humanitarian assistance, for them 
takes focus away from their core military objectives and, you 
know, from a taxpayer perspective is more expensive than any 
civilian alternative. So the use of military assets is actually 
one of the least used means to deliver humanitarian assistance.
    In conflicts, the----
    Ms. Stefanik. Time is expired; sorry about that.
    [The prepared statement of Mr. Schopp can be found in the 
Appendix on page 59.]
    Ms. Dalton, you are recognized for 5 minutes.

STATEMENT OF MELISSA DALTON, SENIOR FELLOW AND DEPUTY DIRECTOR, 
   INTERNATIONAL SECURITY PROGRAM, AND DIRECTOR, COOPERATIVE 
DEFENSE PROJECT, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Ms. Dalton. Madam Chair Stefanik, Ranking Member Langevin, 
and distinguished members, it is an honor to testify before you 
today on the Department of Defense's role in foreign 
assistance. I will focus my remarks on four areas: framing 
DOD's role, challenges, opportunities, and a summary of the 
recommendations I offer in my written testimony.
    DOD plays an important supporting role in U.S. humanitarian 
and disaster relief, or HADR, and stabilization missions as 
global crisis arise. DOD's ability to mobilize resources 
quickly, secure access, and jumpstart critical HADR and 
stabilization operations is a key function of the U.S. foreign 
policy tool kit. In addition, to keep pace with strategic 
competitors China and Russia, reinforcing a network of partners 
at the state, sub-state, and transregional levels through HADR 
and stabilization missions will both bolster U.S. efforts to 
counter coercion and retain access and influence.
    To this end, the 2018 National Defense Strategy highlights 
the imperative for DOD to enable U.S. interagency counterparts 
to advance U.S. influence and interests. DOD supports State and 
USAID in HADR and stabilization activities.
    Next, I will turn to the challenges. Excuse me. Every HADR 
and stabilization response provides an opportunity to garner 
best practices and lessons learned. The U.S. Government 
inevitably is challenged in at least three respects in any HADR 
and stabilization mission.
    First, given that DOD is often the first U.S. entity on the 
ground, there may be a tendency to frame the policy and the 
mission from a national security perspective, and crowd out 
other important foreign policy considerations such as how to 
fit these activities into a broader strategy and what second- 
and third-order effects the intervention may have. This may 
lead to a preference for primarily leveraging military 
capabilities for a civilian-led and -focused operation and 
mission creep beyond the original policy and mandate for U.S. 
forces.
    Second, growing political and public skepticism of the 
return on investment for U.S. foreign assistance may constrain 
future policy and legislative latitude in conducting HADR and 
stabilization missions.
    Finally, cuts to the State and USAID budgets will impair 
their ability to be responsive to foreign assistance 
requirements around the globe. DOD in turn may have to work 
doubly hard not to overreach if the departments it is 
supporting do not have the manpower or resourcing to perform 
their leading functions.
    On the flip side, there are several opportunities to 
harness. DOD benefits from a rigorous internal lessons-learned 
process that may allow it to examine mission history, adapt, 
and be responsive to future HADR and stabilization 
requirements. In addition, DOD operators have forged robust 
relationships with USAID and State personnel over the last 15 
years through shared experiences such that there are at least 
two generations of DOD personnel that have a deep sense of the 
importance of interagency relationships and coordination.
    This is reflected in the interagency Stabilization 
Assistance Review, or SAR framework, which offers a common 
definition and set of principles for stabilization for the 
first time. More broadly, DOD accrues benefits from conducting 
HADR and stabilization missions in several respects: deepening 
relationships with partners and building their capacity; 
facilitating combatant command access; knowledge of the laws, 
institutions, systems and capacities of partners which can 
inform planning; and increasing readiness of U.S. forces for a 
range of contingencies.
    With their close access to and communication with affected 
civilians, humanitarian organizations are uniquely placed to 
provide critical information to military counterparts about the 
impacts of HADR and stability operations on civilian 
populations, while still abiding by their principle of 
neutrality. DOD should seek to expand and deepen these 
relationships, working in tandem with USAID and State.
    Finally, I will summarize the recommendations I have 
provided in my written testimony. The U.S. Government with DOD 
in a supporting role should develop tailored playbooks for a 
range of contingencies with U.S. interagency nodes and 
mechanisms identified that could be pulled into teams and 
employed quickly.
    It should conduct scenario-based tabletop and operational 
exercises with a mix of national security policy, operators, 
and non-Federal entities to inform planning for future 
operations. It should decide on clear objectives and outcomes, 
set realistic goals with local buy-in, and prioritize, layer, 
and sequence lines of effort among interagency and 
multinational partners. It should increase assessment, 
monitoring, and evaluation systems and accountability measures 
to understand the local context before launching the mission 
and ensure HADR and stabilization objectives and outcomes are 
met.
    It should pick and employ the right people with regional 
and functional expertise, and improve the authorities and 
mechanisms for operating in complex environments, and at the 
sub-state and transregional levels, especially for contexts in 
which reliable state-based governments may not exist or be able 
to be engaged.
    It should own the narrative, speak effectively and 
consistently about U.S. intentions and activities, and it 
should engage with humanitarian implementers regularly to 
inform understanding of the local context, partners, and impact 
on local civilians, while respecting their principle of 
neutrality.
    Ms. Stefanik. Okay, your time is up here.
    Ms. Dalton. Thank you.
    [The prepared statement of Ms. Dalton can be found in the 
Appendix on page 70.]
    Ms. Stefanik. We are going to start time for my questions, 
if you both can use that time and do the end statements, you 
can use some of my question time. So why don't you finish up 
quickly and then you can go, Mr. Schopp.
    Ms. Dalton. Thank you so much. I was just going to thank 
the committee for the opportunity to testify today. I had 
reached the end. Thank you.
    Ms. Stefanik. Great.
    And, Mr. Schopp, you had some additional remarks, my one 
question for you is you talked about how NGOs make the decision 
to work with DOD and not work with DOD. Can you walk us through 
that decision-making process, why you would choose to work with 
DOD and then why not, and then if you had additional 
statements, you can use this time for that as well.
    Mr. Schopp. Thank you for your question. I represent 190 
members, so 190 different non-governmental organizations, so 
I--70 of which work in humanitarian settings. I think each 
organization has got its own way of looking at these 
relationships and has a different means of analysis. So you 
have a full spectrum of some organizations that will be more 
willing to cooperate and others less, and that is really based 
on their mandate, their history, and how they view the response 
as a whole.
    I think one thing to note is that what you do in one 
theater of operation nowadays, we have heard about social 
media, et cetera, is now known in other theaters of operation. 
So what you do in one country, maybe for pragmatic reasons, may 
influence another operation that you are working in.
    I won't necessarily take more of the time, just thanking 
you, and I think it is a very important dialogue that we have 
with you and really thanking you for having us here.
    Ms. Stefanik. My other question, Ms. Dalton, I understand 
that you worked with interagency on the SAR, and I want you to, 
if you could, grade the homework of the interagency in putting 
that together. What do you think has been left out, what do you 
think will be most difficult to implement moving forward?
    Ms. Dalton. Thank you for the question.
    First, I actually want to commend the interagency for 
putting forward the SAR. Some may critique the fact that we 
have been attempting these types of operations for a good 15 to 
20 years, why, why only now? I think it's a unique moment of--
in the American context in terms of both political and 
budgetary pressures that are compelling this narrative, but 
also, frankly, some complementary streams and lines of argument 
in terms of what does our--what do our investments abroad 
really get us?
    But I think the framework actually did a really nice job 
first of articulating a common definition across the U.S. 
Government in terms of what do we mean by stabilization as a 
political activity, and setting out the specific sets of 
supporting activities that each agency needs to undertake in 
support of that, and also laying out specific guidelines 
informed by a robust literature review and consultations with 
the policy and practitioner communities.
    Going forward, I think there are some key questions, the 
devil is in the details, in terms of operationalizing this. I 
think that setting out some key criteria in terms of where 
stabilization can actually take hold, doing the robust, upfront 
assessments of what sort of impacts and outcomes we can 
actually achieve, having the apparatus within the U.S. 
Government to perform those functions up front when matched 
with the political urgency that often comes with having to 
launch stability operations.
    These are often crisis-driven events, so taking a deep 
breath and suppressing that urge to fire and forget I think 
will be a bit of a cultural change across the U.S. Government. 
But I think there is a good starting point here, and 
collectively I think Congress, broader policy community, NGO 
community, can help the interagency in articulating some next 
steps.
    Ms. Stefanik. Thank you.
    Mr. Cooper, 5 minutes.
    Mr. Cooper. Thank you, Madam Chair. I think Mr. Schopp 
mentioned in his testimony he has 190 members? How many NGOs 
don't belong to your organization?
    Mr. Schopp. I am afraid I do not know this. I mean the--to 
be a member of InterAction you have to have a legal existence 
and status in the U.S. I would----
    Mr. Cooper. Looking for a rough----
    Mr. Schopp [continuing]. I would say 90 percent of the NGOs 
working internationally are members of InterAction, but that is 
an approximation.
    Mr. Cooper. Ninety percent of the U.S. NGOs?
    Mr. Schopp. Working internationally, yes.
    Mr. Cooper. Okay. What market share do you have of 
international NGOs based in other countries?
    Mr. Schopp. I think it is difficult to say because many of 
them--of the bigger actors that you hear about, the Save the 
Childrens, the World Visions, are now federations. So they have 
a U.S.--they have a U.S. office, they have a U.K. [United 
Kingdom] office, they will have a Swiss office, they will have 
an African office in Nairobi and Kenya, they will have a 
regional office in Bangkok.
    It is very difficult to say.
    Mr. Cooper. So for example, would Doctors Without Borders 
be a member of your organization?
    Mr. Schopp. No, it's one of the rare ones that are not, and 
interestingly enough they used to be and they left InterAction 
during the Iraq invasion, because they wanted to keep--because 
of what we said--completely neutral in their approach and they 
felt that InterAction at the time did not.
    Mr. Cooper. In your testimony, you say 80 percent of these 
are now involved in conflict areas, and that is the reverse 
percentage. Natural disasters haven't gone down, so is this 
more money going into conflict areas, or just a shift of old 
money?
    Mr. Schopp. I think there are two elements to that. The 
first element is I do think that we have success with nations 
that are prone to climate hazards in terms of disaster risk 
reduction, and preparing them better to answer and respond 
themselves. So I think there is less of a need for 
international support for natural disasters; it is only the 
really large-scale natural disasters now that require the 
support of the international community, while before, I think 
it--they were much more numerous.
    And in terms of the conflict, I think that from what we 
see, all the conflicts that we are involved in have been 
protracted; they have been going on for a long time. So it is 
not you replace one with the other; they just add one to 
another, and that is one of the issues that we have is looking 
towards political solutions to solve those conflicts and not 
let them become so protracted.
    Mr. Cooper. I don't want to be cynical, but it almost seems 
like if an NGO's involved in a conflict situation, that means 
the NGO got involved too late, because it is always better to 
prevent a conflict than to try to ameliorate an existing one.
    Mr. Schopp. Fair enough. If you are present on the ground 
and you are--and you are part of this, but I mean I would 
argue, you know, from a humanitarian organization perspective, 
this is our job, to come in at those times when there is no one 
else to come to the assistance of the civilians that have been 
displaced or targeted. There's no government structure; there 
is no no other form of support. So it is--we only come when it 
is too late; I agree. I would not necessarily blame us for 
that.
    Mr. Cooper. So with your members, we could estimate, 
especially since most are U.S.-based, the total contributions 
or revenues of those organizations, and therefore we could 
check and see how much the U.S. tax expenditure is for those 
organizations, because most people who donate want a tax break.
    Mr. Schopp. I mean we could follow up with you and look a 
little bit into those figures. I think one important point may 
be to your question is NGOs have very different sources of 
funding these days. Some is Federal, some is from foreign 
governments, some is from corporations, and a lot from private 
citizens. And so we have to look at the proportions of this and 
they are unique for each organization.
    [The information referred to can be found in the Appendix 
on page 83.]
    Mr. Cooper. So the nature of your organization that 
prevents you from grading them which are more effective, right? 
You don't--all your children are equally beautiful.
    Mr. Schopp. Of course. No, but we do--what we do is to be a 
member of InterAction, you have to commit to a certain number 
of standards that are internationally recognized standards. And 
so there is a threshold to become an InterAction member and to 
be recognized as such, and it is recognized by the U.S. 
Government as somewhat of a stamp of approval.
    Mr. Cooper. My time is about gone, but some countries like 
Russia are treating NGOs as in effect government organizations. 
Egypt, other countries are doing that too, so increasingly it 
is a suspect category.
    Thank you, I see I have 3 seconds left; I don't want to 
incur the wrath of the Chair.
    Ms. Stefanik. Go ahead; we only have a few more members.
    Mr. Schopp. I mean, just to answer that, I think this is 
why it is more and more important, or as important as ever, to 
really abide by these humanitarian principles, because we do 
have to convince all parties to the conflicts and all 
governments that our aims are non-political and that we are 
not, you know, part of another agenda, so--to answer your 
question. And it is difficult, and more and more difficult.
    Ms. Stefanik. Mr. Scott.
    Mr. Scott. Thank you, Madam Chair.
    Ms. Dalton, in your testimony one of your recommendations 
is the development of off-the-shelf playbooks for a range of 
humanitarian assistance and disaster relief contingencies. Can 
you provide us with more in-depth discussion on interagency 
nodes and also in large disaster relief, it is in our country, 
as well, and the capabilities and what it would take--what 
would have to be prepared to be pulled into an employment team, 
and could we get agreement among multiple countries of what 
those plays would be.
    Ms. Dalton. Thank you for the question.
    As I had framed the recommendation, I was thinking more in 
terms of a U.S. interagency look at creating playbooks. But I 
think you raise an important second element of that, which is 
how to leverage allies and partners that would inevitably be 
called upon to be a part of the response team. So I think it 
starts with first doing that internal assessment that I think 
DOD is well situated to do unto itself in terms of aligning 
particular nodes of the DOD organization that would be called 
upon to address a particular scenario and then what 
capabilities would need to be leveraged to then take the step 
of looking across the interagency.
    Of course, State and USAID being the prime partners, but 
might there be other entities--Treasury, Justice--depending on 
the nature of the beast, that would need to be pulled into that 
as well and designing, essentially, a playbook from day zero to 
day ``N'' in terms that when you would need to pull in 
different elements, different capabilities to address a 
particular scenario.
    And then the third level of analysis is, as you suggest, 
which I think is a great addition, is having a conversation, 
depending on the scenario, with the relevant regional partners 
or more broadly, extra-regional allies that might not be needed 
to be drawn into the equation. And perhaps incorporating that 
into regular annual bilateral dialogues that we have with many 
of our allies and partners might be a good forum in which to 
have that conversation.
    Mr. Scott. It seems to me that one of the key questions 
here is who's in charge, because someone has to make the 
decisions, someone has to lead and someone has to follow, even 
in a partnership. And I just--I think this is an important part 
of what we do as America and who we are. And I think that--I 
think there is a lot of good work that, unfortunately, any time 
there is a little mistake, there is a tremendous amount of 
criticism, and the majority of the good work goes without 
notice.
    So thank you for what all of you do. I think it's an 
important part of who we are as Americans. And with that, I 
will yield my time.
    Ms. Stefanik. Thank you.
    We are going to do a second round of questions for those 
that are interested. I wanted to follow up, in my opening 
statement I talked about how this subcommittee in particular 
has been very focused on the 18 years of CT operations and 
near-constant combat. For viewers, so for constituents that we 
each represent who have very busy lives, I know we are very 
focused on the SAR review, but let us take it up to sort of the 
30,000-foot level.
    Looking back at the past 18 years, what are the biggest--
the three biggest problems in our stabilization efforts that we 
need to fix moving forward? Go ahead.
    Ms. Dalton. Sure. Happy to take the first crack at that. 
You know, I think it is the meta conversation to be had around 
counterterrorism over the last 18 years is that 
counterterrorism unto itself is not a strategy, and that we 
have been attempting to approach it as such. And when we think 
about stabilization, it is that thing that happens after CT. 
And yet we find ourselves kind of in this do-loop over and over 
again of thinking that we have addressed the terrorism's 
challenge and then flip the switch for stabilization.
    I think what we found over time is that these situations 
are a lot more fluid, that you have to start laying the 
groundwork as you go in the course of conducting a 
counterterrorism operation to be cognizant of the context in 
which you are operating, how it nests into a broader country or 
even regional strategy, and then how you start laying the 
foundations for stabilization as you are conducting your 
kinetic operations, that perhaps there is a greater need to 
have more dialogue with humanitarian implementers while 
conducting your kinetic operations to understand what is the 
impact on the civilian population.
    How can we start layering in the initial ingredients of 
stability operations side by side with the CT campaign so that 
you are consolidating gains as you go and not thinking about it 
6 to 9 months later when terrorists that might have been pushed 
back by--out of the area are merely embedding and waiting for 
an opportunity to step back in.
    Ms. Stefanik. And, Ms. Dalton, do you think the review 
adequately addresses the--how you have laid out kind of these 
big questions that we need to answer?
    Ms. Dalton. I think it does insofar as the--I know the 
rigorous literature review that the team undertook in--that is 
behind the scenes of the SAR itself speaks to, contextually, 
examples of where we have seen this played out. So I think the 
principles laid out in SAR in terms of doing the assessment, 
monitoring, evaluation, ensuring that you have an anchor to 
clear outcomes and objectives articulated up front, is a 
reflection of these experiences.
    Ms. Stefanik. Mr. Schopp, did you want to answer? No?
    Mr. Cooper, do you--had additional questions?
    Mr. Cooper. Thank you.
    I would like to the--for the record, get a sense of scale 
from either or both of you all. If Mr. Schopp represents 
primarily U.S. NGOs, how those compare as an aggregate versus 
European ones and other donor nations, Japan, whatever. And 
also compare with what Russia or China are doing or India; that 
would give me a sense of scale.
    Because it is my recollection that actually in terms of 
donations and kindness internationally, the U.S. Government 
PEPFAR [President's Emergency Plan for AIDS Relief] program is 
one of the largest in history, right? Multibillion-dollar 
effort dwarfs most other things and that is something the U.S. 
has been doing--started by the George W. Bush administration. I 
think that really doesn't get the credit that perhaps it 
deserves. So a sense of scale would be helpful.
    Mr. Schopp. Okay. As mentioned before, I can get back to 
you with specific numbers. In terms of scale, I mean PEPFAR is 
really a development program more than a humanitarian one, but 
as you mentioned, it--yes, it is one of the biggest that was 
ever--that were ever initiated. It is still continuing and it 
has got incredibly positive results and we don't really hear 
about that, as you mentioned, as much.
    [The information referred to can be found in the Appendix 
on page 83.]
    The U.S. Government is and has been historically on the 
humanitarian side the biggest donor to the humanitarian 
community. There are other governments, the European Union, the 
Scandinavians, that are also very generous with humanitarian 
assistance. In terms of the NGO community, you know, the 
separation between Europeans and U.S. entities, I think it's 
very, again, difficult to determine.
    The U.S. NGO sector is probably bigger than the--on the 
humanitarian side than the European one, but they are 
comparable and they are the main actors. Looking to Russia and 
China, I mean there is no non-governmental sector in either of 
those countries, as you have mentioned, either for political 
reasons or other.
    We do sometimes provide advice to how they can organize 
themselves if they want to develop that sector. And that is 
something that we do, especially on the disaster risk reduction 
side as we have mentioned. But as a sector, I--the Chinese and 
the Russians are not really an entity within the humanitarian 
sector as it stands.
    Mr. Cooper. So oligarchs or princelings don't have their 
favorite causes or charities?
    Mr. Schopp. Not to my knowledge.
    Mr. Cooper. That is quite--that is like Sherlock Holmes' 
dog that didn't bark, that is a clue in and of itself. It might 
not be observable, but people with means should be generous. 
That is an astonishing gap in world generosity totals, because 
that, you know, if Putin himself is estimated to be worth $100 
billion personally, this is astonishing if--it is not like he 
signed up for the Bill Gates, Warren Buffet giving pledge or 
anything like that.
    Yes, Ms. Dalton.
    Ms. Dalton. If I could, sir, just to comment on that, I 
mean I think if you look more broadly at Russian and Chinese 
and Iranian activities in Syria, I think they do see a self-
interested reason to be investing in reconstruction, which is 
beyond--a bit beyond the scope of what we are talking about 
here today. We are talking about the immediate response needs 
and the aftermaths or in concurrence with conflict. But I think 
what we are seeing is direct investments by the Russians and 
the Chinese to shore up their power and influence and economic 
opportunities in Syria.
    Mr. Cooper. Big difference between investment and donation, 
like if you get a port or a factory or a section of a city in 
return, that is not exactly a charitable impulse.
    Ms. Dalton. Exactly, sir.
    Mr. Cooper. Thanks.
    Ms. Stefanik. Thank you, to our panelists for being here 
today. This is very helpful for our purposes as we continue 
moving the NDAA through the conference process. And with that, 
this hearing is adjourned.
    [Whereupon, at 11:38 a.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             July 11, 2018
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 11, 2018

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 11, 2018

=======================================================================

      

             RESPONSES TO QUESTIONS SUBMITTED BY MR. COOPER

    Mr. Schopp. As a whole, InterAction's membership represents 
approximately $15.9 billion in contributions to end poverty and 
alleviate human suffering globally as reported to the IRS, 24% of which 
is received from U.S. government grants, with the bulk of remaining 
funding coming from foundations and individual donors. The breakdown 
for our member organizations is unique to each one, ranging from those 
that do not accept any U.S. government funding to those that receive 
the bulk of their funding from the U.S. government. While InterAction 
does not collect or track this data for each member organization, our 
members do publicly disclose their U.S. financial contribution data 
through IRS 990 forms, typically posted on their websites. This data 
has been researched by other organizations, such as the Hudson 
Institute, which published aggregated data in their Index of Global 
Philanthropy and Remittances, most recently updated with 2016 data.   
[See page 27.]
    Mr. Schopp. U.S.-based INGOs receive a disproportionately larger 
amount from the American public than other INGOs receive from their 
country's citizens. U.S. INGOs also receive contributions from a 
combination of individual donors, foundations, corporations, and faith-
based groups.
    When it comes to governments' official development assistance 
(ODA), the United States is indeed the most generous donor, 
contributing approximately $33 billion through congressional 
appropriations in 2016. This compares to approximately $114 billion 
from other donor governments, including $19 billion from the United 
Kingdom, $17 billion from Germany, $11 billion from France, $9 billion 
from Japan, $6 billion from Sweden (the largest contributor as a 
percentage of their gross national income), $3 billion from China, $1 
billion from India, and a negligible amount from Russia.
    In terms of private giving, the United States is again the largest 
donor in aggregate, representing almost $44 billion as of 2016. This 
number of private contributions compares to approximately $21.5 billion 
from private giving in other countries, including nearly $5 billion 
from the United Kingdom, $4.5 billion from Japan, $1.9 billion from 
Germany, $800 million from France, $550 million from Sweden, $249 
million from India, $3.7 million from China, and a negligible amount 
from Russia.
    It should be noted that Russian NGOs are local to Russia for the 
most part, and almost exclusively privately funded since their 
government strongly opposes civil society organizations. A similar 
problem exists on a lesser scale in China.
    It should also be noted that the focus of Chinese investments 
overseas takes the form of foreign direct investments in market 
development, rather than ODA.
    More data for other countries can be drawn from the Hudson 
Institute's Index of Global Philanthropy and Remittances, most recently 
updated with 2016 data.   [See page 29.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 11, 2018

=======================================================================

      

                    QUESTIONS SUBMITTED BY MS. ROSEN

    Ms. Rosen. Earlier this year, more than 120 retired three- and 
four-star flag and general officers wrote to congressional leadership 
about the necessity of prioritizing funding for diplomacy and 
international aid, along with defense, to protect the nation.
    ``The military will lead the fight against terrorism on the 
battlefield, but it needs strong civilian partners in the battle 
against the drivers of extremism--lack of opportunity, insecurity, 
injustice, and hopelessness,'' they wrote.
    Without sufficient funding for developmental agencies, would DOD's 
task of defending the nation be more difficult, less effective, and 
pose greater risk to the lives of American service members carrying out 
America's mission?
    Mr. Jenkins. USAID has a long history of working in conflict prone 
environments, and based on our experience in the field preventing 
violent extremism and insurgency, the effective use of development 
tools can play a potent role in supporting national security objectives 
to combat terrorism. Addressing these complex crises requires USAID, 
the Department of State, and the Department of Defense (DOD) to work 
together to combat the key issues underlying the threat of violent 
extremism. USAID partners with national and local governments and civil 
society to address the root causes of conflict and instability by 
promoting inclusive governance, an effective justice sector, and socio-
economic opportunity that strengthens resilience to destabilizing 
conflict and violent extremism. Development investments, such as those 
USAID has undertaken to support stabilization in Sirte, Libya, or to 
prevent radicalization to violence in Bosnia and Herzegovina, directly 
enhance and ensure DOD's efforts are lasting, while also strengthening 
local capacity to prevent and respond to conflict in the future to 
establish a sustainable, peaceful outcome. This approach is not only 
necessary for an enduring peace, but also strengthens a country's 
journey to self-reliance. DOD's recognition that USAID remains an 
important interagency partner has since been echoed in places such as 
Syria, Iraq, Afghanistan, Somalia, Libya, and areas across the Sahel. 
USAID provides a unique U.S. Government national security capability to 
analyze and respond to vulnerable populations in complex conflict and 
national security environments. Whether it is to disrupt ISIS entry 
points to extend its influence and recruit youth in northeastern 
Nigeria or consolidating security gains by providing lifesaving early 
recovery assistance post-clearing operations such as in Raqqah, Syria 
or to strengthen community cohesion through pluralistic and fact-based 
media against anti-democratic forces, USAID plays a key role in 
enabling and sustaining U.S. Government national security solutions.
    Ms. Rosen. Earlier this year, more than 120 retired three- and 
four-star flag and general officers wrote to congressional leadership 
about the necessity of prioritizing funding for diplomacy and 
international aid, along with defense, to protect the nation.
    ``The military will lead the fight against terrorism on the 
battlefield, but it needs strong civilian partners in the battle 
against the drivers of extremism--lack of opportunity, insecurity, 
injustice, and hopelessness,'' they wrote.
    Without sufficient funding for developmental agencies, would DOD's 
task of defending the nation be more difficult, less effective, and 
pose greater risk to the lives of American service members carrying out 
America's mission?
    Mr. Mitchell. Although the Department does not comment upon the 
funding levels of other U.S. Government departments and agencies, 
strong developmental agencies are vital to achieving our defense 
objectives. The National Defense Strategy acknowledges an increasingly 
complex global security environment, characterized by overt challenges 
to the free and open international order and the re-emergence of long-
term, strategic competition between nations. Revisionist powers and 
rogue regimes are competing across all dimensions of power. A long-term 
strategic competition requires the seamless integration of multiple 
elements of national power--diplomacy, information, economics, finance, 
intelligence, law enforcement, and military. Capable U.S. Government 
developmental agencies are critical to operating in this environment 
and winning this strategic competition. Recognizing the critical 
importance of our interagency partners, the 2018 National Defense 
Strategy identifies ``Enabling U.S. interagency counterparts to advance 
U.S. influence and interests'' as a Defense Objective. Effectively 
expanding the competitive space requires combined actions with other 
U.S. Government departments and agencies to employ all dimensions of 
national power. The Department of Defense will assist the efforts of 
the Departments of State, Treasury, Justice, Energy, Homeland Security, 
and Commerce, the U.S. Agency for International Development, as well as 
the intelligence community, law enforcement, and others to identify and 
build partnerships to address areas of economic, technological, and 
informational vulnerability.

                                  [all]
</pre></body></html>
